<html>
<title> - ORGANIZATIONAL MEETING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                          ORGANIZATIONAL MEETING

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            FEBRUARY 1, 2017

                               __________

 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             
                               

            Small Business Committee Document Number 115-001
              Available via the GPO Website: www.fdsys.gov
                  
                  
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-289 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="395e4956795a4c4a4d515c5549175a565417">[email&#160;protected]</a>                   
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                          DON BACON, Nebraska
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                                 VACANT
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                            
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Nydia Velazquez.............................................     3

                                APPENDIX

Additional Material for the Record:
    Authorization and Oversight Plan of the Committee on Small 
      Business for the One Hundred Fifteenth Congress............     8
    Rules and Procedures Adopted by the Committee on Small 
      Business...................................................    15

 
                         ORGANIZATIONAL MEETING

                              ----------                              


                      WEDNESDAY, FEBRUARY 1, 2017

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:04 a.m., in Room 
2360, Rayburn House Office Building, Hon. Steve Chabot 
[Chairman of the Committee] presiding.
    Present: Representatives Chabot, King, Luetkemeyer, Brat, 
Radewagen, Knight, Kelly, Blum, Comer, Gonzalez-Colon, Bacon, 
Marshall, Velazquez, Evans, Murphy, and Lawson.
    Chairman CHABOT. The Committee will come to order.
    Good morning. We want to welcome everybody here, both 
Members and those in the audience, and those tens of people at 
home that are watching this. I call the Committee on Small 
Business organizational meeting to order. We want to welcome 
all the returning and new members of the Committee.
    Before introducing the new Republican members, I would like 
to take a moment to recognize the Ranking Democratic Member, 
Congresswoman Nydia Velazquez, with whom I have served for many 
years, with one of us in the chair and the other being Ranking 
Member over a number of years, and sometimes she is in the 
chair and sometimes I am the chair, and we go back and forth. 
But hopefully, it will be this way for a while. We don't agree 
on that I am sure. But we have an excellent working 
relationship, and I know that we will continue to build on this 
Committee's strong bipartisan record of accomplishment for 
entrepreneurs.
    We are open to working with our Democratic colleagues on 
amendments to bills and anything that they think that we can 
improve the atmosphere and climate for small business in this 
country.
    There are six new Republican Members of the Committee. Rod 
Blum, now in his second term in Congress, was the CEO of a 
small software company before his election. He is fired up to 
join this Committee and put that practical experience to work, 
and we are happy to have him.
    The other five new Members are freshmen. James Comer served 
as a Kentucky State Legislator, where he had quite a reputation 
for tackling government waste. Having also run his family's 
farm in south central Kentucky, I know he has got a passion for 
rural economic development. We welcome him as well.
    Don Bacon has just started his second tour of duty, you 
might say, in public service. He recently retired from the Air 
Force as a Brigadier General. And the people of Nebraska 
decided not to let him enjoy his retirement. They sent him 
here, and we are glad they did.
    Mr. BACON. Thank you, sir.
    Chairman CHABOT. So we welcome you, Don.
    Is Brian here?
    Mr. MARSHALL. He is not.
    Chairman CHABOT. Okay. I think he got held up in another 
Committee. Well, I will say some nice things about him. You can 
all tell him I said nice things. Brian Fitzpatrick is from 
Pennsylvania. He also served our country as an FBI agent and as 
a special assistant U.S. attorney. Brian and I--well, I will go 
into the rest a little later.
    Jenniffer Gonzalez--is it Colon? Say it for me.
    Miss GONZALEZ-COLON. Gonzalez-Colon.
    Chairman CHABOT. Gonzalez-Colon. Okay. Thank you. --is from 
Puerto Rico, was one of the nation's youngest elected 
statehouse members, but she didn't stop there. Her colleagues 
valued her leadership so much that they made her Speaker of the 
House at the ripe old age of 32. I believe she has an 
incredibly bright future here in Congress, and we are honored 
she is starting out here with us. We are going to count on her 
leadership, just as the people of Puerto Rico certainly did, as 
they obviously also do with our Ranking Member, Ms. Velazquez.
    Dr. Roger Marshall joins us from the first district of 
Kansas. Dr. Marshall is well home back home, since he has 
delivered more than 5,000 babies in his career as an OB/GYN. As 
a physician, his practice is a small business. And that 
experience is going to be helpful to us as we take a closer 
look at healthcare solutions in the upcoming weeks and months. 
We welcome you here, Doctor.
    Mr. MARSHALL. Thank you.
    Chairman CHABOT. The very diverse backgrounds and 
constituencies of our freshmen Members will add to the 
experience and expertise of our returning Members in making 
sure we deliver a better way for America's small businesses.
    I would like to welcome back the members who served on the 
Committee during the 114th Congress, and many in previous 
Congresses as well. My friend and fellow Judiciary member, 
Steve King from Iowa, we are on the Judiciary Committee 
together and have served many years together, and he is a 
really good friend. Blaine Luetkemeyer from Missouri, Dave Brat 
from Virginia, Amata Radewagen from American Samoa, Steve 
Knight from California, and Trent Kelly from Mississippi, all 
returning members.
    And finally, I would like to announce the Vice Chair of the 
Committee and the Subcommittee chairs for the 115th Congress. 
We are pleased that Blaine Luetkemeyer is willing and able to 
continue serving as the Vice Chair of the Committee in the 
115th Congress. He really did a great job in the last Congress. 
He has been a hard-working, very hard-working member of this 
Committee for a long time. Very insightful in the questions 
that he has asked witnesses over the years. I had an 
opportunity to observe that. He brings a great deal to this 
Committee.
    We are also grateful to Amata Radewagen for continuing her 
work as Chair of our Subcommittee on Health and Technology. I 
am looking forward to seeing Dave Brat put his background as an 
economist to work as Chair of the Subcommittee on Economic 
Growth, Tax, and Capital Access. Steve Knight will continue his 
hard work on contracting reform that he was involved in in the 
last Congress in his new role as Chairman of the Subcommittee 
on Contracting and Workforce. Trent Kelly is bringing his years 
of experience as a District Attorney and a leader in the Army 
National Guard to his work as Chairman of the Subcommittee on 
Investigations, Oversight, and Regulations. In addition, Rod 
Blum will bring his expertise as a tech entrepreneur and 
representative of a great many Iowa farmers as Chairman of the 
Subcommittee on Agriculture, Energy, and Trade.
    And I would now like to yield to the Ranking Member, Ms. 
Velazquez, to make a statement or introduce her Members.
    Ms. VELAZQUEZ. Sure. Thank you, Mr. Chairman.
    I want to first welcome all returning and new Members on 
both sides of the aisle and take a moment to introduce the 
Democratic members of the committee. We have new Members, and 
are still waiting for some other appointments to the committee.
    First, Dwight Evans of Pennsylvania. Mr. Evans is new to 
Congress this term. He previously served in the Pennsylvania 
House of Representatives for over 35 years, where he was the 
chair of the Appropriations Committee for two decades. He also 
serves on the House Committee on Agriculture.
    Stephanie Murphy of Florida, is new to Congress. This is 
her first term. She previously worked at the U.S. Department of 
Defense, was a businesswoman and a college instructor. She also 
serves on the House Armed Services Committee.
    Mr. Al Lawson of Florida is new to Congress. He previously 
served in the Florida House of Representatives and the Florida 
Senate. He also serves on the House Committee on Agriculture.
    So I look forward to working with all of you.
    Some of the other members are at other Committee hearings. 
They will be coming in late. As soon as they make it, I will 
introduce them.
    Thank you, Mr. Chairman.
    Chairman CHABOT. Thank you very much.
    Ms. VELAZQUEZ. I yield back.
    Chairman CHABOT. Thank you.
    There are over 28 million small businesses in America. 
While the members of this Committee will inevitably have policy 
differences, all of us have a common goal: To make sure that 
our small businesses grow and create the critical jobs that 
America needs. There are numerous issues where we can find 
common ground to make government more efficient and ensure that 
the Small Business Administration carries out the will of 
Congress. I believe that the Rules Package and Authorization 
and Oversight Plan will lay the groundwork for finding those 
areas that we have in common, while maintaining the highest 
levels of bipartisan for which this Committee is known.
    And I would now like to yield to the Ranking Member for the 
purpose of making an opening statement.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Small businesses continue making vital contributions to our 
economy, and we will do whatever it takes to support them. By 
the way, this may be the only committee in Congress that works 
in a bipartisan matter. And I hope that we will continue doing 
that. I always say that there is no Republican or Democratic 
approach when we deal with small businesses.
    Generating nearly two-thirds of net new jobs over the last 
15 years, small firms are the innovators and drivers of 
economic progress. Entrepreneurship also serves as the backbone 
of our nation's economy, enabling individuals to pursue their 
dreams and become financially self-sufficient.
    As we move forward, we must make sure that small businesses 
are given the resources and protections they need to prosper. 
As has been said in the past, both Republicans and Democrats 
want and need small firms to succeed and create jobs in our 
communities. I look forward to continuing this tradition during 
the 115th Congress.
    Mr. Chairman, I yield back.
    Chairman CHABOT. Thank you. The gentlelady yields back.
    I would like to thank both the Majority and Minority staffs 
for their work and cooperation in putting together the Rules 
Package that we are considering here this morning.
    There are no substantive changes from the Rules adopted in 
the last Congress, the 114th Congress. The Rules have simply 
been reordered and labeled with subheadings to make it easier 
for Members and staff to consult and follow the appropriate 
rules. In consideration of time demands of Members, we will 
continue to apply the 5-minute rule on questioning of witnesses 
to the Chair and Ranking Member. This worked well during the 
114th Congress, and I expect that we will continue to be able 
to accommodate the needs of all Members in questioning 
witnesses.
    I would now like to recognize the Ranking Member, Ms. 
Velazquez, for any remarks that she may have relative to the 
Rules Package.
    Ms. VELAZQUEZ. Thank you.
    Our committee's Rules are not only a vital institutional 
requirement, but they also set clear parameters for how we 
operate. More importantly, they contain protections ensuring 
that all points of view are considered. It is important for 
Members on both sides of the aisle to know that, in most 
regards, these rules are the rules I used when I was Chair of 
the committee, and I believe it is a testament to the 
Chairman's willingness to work in a bipartisan way.
    In this day and age, when too many try to stack the rules 
in their favor, it is refreshing that this committee does not 
have to be concerned about such distractions. A committee that 
is run openly and fairly is a committee that works and can best 
achieve its objective. It is my hope that the Rules we consider 
today will make this happen. Through their adoption, we will 
start the 115th Congress in a way that permits us to work 
across the aisle, and equally important, to solve the problems 
facing our nation's small businesses.
    With that, I yield back, Mr. Chairman.
    Chairman CHABOT. Thank you. The gentlelady yields back.
    Are there any other Members who would like to have time to 
speak relative to the rules package?
    Okay. If not, the Committee now moves to consideration of 
the rules package. The clerk will read the title of the 
document.
    The CLERK. Rules and procedures adopted by the Committee--
--
    Chairman CHABOT. I ask unanimous consent that the rules 
package be considered as read and open for amendment in its 
entirety.
    Does any Member seek recognition for the purpose of 
offering an amendment?
    Seeing no amendments, the question is on adopting the 
rules. All those in favor, say aye.
    Any opposed, say no.
    In the opinion of the Chair, the ayes have it. The ayes 
have it. The Rules for the Small Business Committee in the 
115th Congress are adopted. The staff is authorized to make 
technical and grammatical changes.
    Today's second order of business is to consider the 
Committee's Authorization and Oversight Plan. This plan 
represents the agenda for the Committee during the 115th 
Congress. I want to thank the Ranking Member, Ms. Velazquez, 
for her input on the Authorization and Oversight plan, and her 
staff and our staff as well.
    The plan is similar to the Oversight Plan adopted in the 
114th Congress, with an emphasis on a close and thorough 
examination of all the SBA programs. In addition, this plan 
reflects the Committee's broad oversight authority under the 
Rules of the House to investigate, really, any problem 
affecting small business.
    The House Rules for the 115th Congress require each House 
Committee to include in its Authorization and Oversight Plan 
any unauthorized programs or agencies within that Committee's 
jurisdiction that have received funding in the past fiscal 
year. In the case of permanent authorizations, each Committee 
must list the programs that have not received a comprehensive 
review in the prior three Congresses.
    This Committee has been diligent about aggressive and 
bipartisan oversight of programs within its jurisdiction. In 
reviewing the SBA programs, we have found none that meet the 
tests set forward in the new House Rules. In the 115th 
Congress, we will continue the vigorous oversight that this 
Committee undertook in the 114th, including our ongoing 
examinations of the SBA 7(a) loan and the HUBZone programs. And 
we are obviously looking to our new Subcommittee Chairman, Mr. 
Kelly, for distinguishing himself in that oversight.
    At this point, I would yield to the Ranking Member, Ms. 
Velazquez, for any comments that she may have on the 
Authorization and Oversight Plan.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    The Oversight Plan sets forth a policy framework for our 
work this Congress. And the Chairman is to be commended on 
producing a thoughtful document. The plan calls for the robust 
oversight of the SBA and other federal small business 
initiatives, a long tradition that this committee takes 
seriously.
    In the past, we have investigated the SBA's disaster and 
contracting programs, which has yielded positive changes. These 
are but two examples of the benefits that congressional 
oversight can provide. It also identifies several programs for 
review and possible termination. In this context, the committee 
has forged a bipartisan consensus opposing the SBA continued 
creation of unauthorized pilot programs. Diverting scarce 
taxpayer dollars away from proven programs can open the door to 
fraud, waste, and abuse, something we are all working to 
minimize. On the flip side, there are statutorily authorized 
programs that need more support. One such program is the 
Women's Procurement Program, which sets aside contracts for 
women-owned small businesses. Unfortunately, it continues to 
languish and is underutilized.
    But, while the Agency finds millions annually for its pet 
projects, it neglects important programs like this. In this 
regard, I look forward to working with my colleagues to examine 
how the agency is establishing its priorities.
    The Majority also cites the need to evaluate trade 
policies. With President Trump's more protectionist view on 
trade, it is critical to understand how small businesses will 
be affected by such changes, as well as their views on the 
heightened tensions with major trading partners such as Mexico. 
U.S. businesses sold nearly $240 billion worth of products to 
Mexico in 2015, making it the second largest export market for 
American companies. Many small retailers and restaurants also 
rely on imports from Mexico. In this regard, I look forward to 
the committee's examination of how closing or reducing U.S. 
access to the Mexico market will impact America's small 
businesses.
    In addition, I am glad that the Majority has stated in 
their Oversight Plan that it will consider ways to enhance the 
utilization of the Manufacturing Extension Partnership at the 
Department of Commerce. This is especially important given that 
President Trump has stated he wants to abolish it.
    Similarly, I am also heartened with the Majority's focus on 
renewable energy, which has been a bipartisan issue for this 
committee for as long as I can remember. I am hopeful our 
committee will continue advancing policies and programs 
important to small businesses.
    Finally, regulatory burden is an important issue, and we 
must continue our work in this area. We need to understand how 
we can make the regulatory process friendlier to small 
businesses without undermining essential safeguards that many 
of these rules provide. We have heard it before, but small 
businesses need to be a priority when it comes to these issues, 
not an afterthought.
    I look forward to examining these matters this year and 
continuing to work with Chairman Chabot and the rest of the 
committee's Members on both sides of the aisle. Whether it is 
the SBA or matters of importance to small businesses, Congress 
needs a clear agenda for assisting them. It is paramount that 
we start addressing these issues quickly. By doing so, we have 
the potential to truly help create new jobs and move the 
economy forward. With that, I urge my colleagues to approve 
this Oversight Plan.
    I yield back, Mr. Chairman.
    Chairman CHABOT. Thank you. The gentlelady yields back.
    Are there any other Members who wish to be recognized for 
the purpose of making a statement on the Authorization and 
Oversight Plan?
    Okay. If not, the Committee now moves to consideration of 
the Authorization and Oversight Plan. The clerk will read the 
title of the document.
    The CLERK. Authorization and Oversight Plan----
    Chairman CHABOT. I ask unanimous consent that the 
Authorization and Oversight Plan be considered as read and open 
for amendment in its entirety.
    Does any Member seek recognition for the purpose of 
offering an amendment?
    If not, seeing no amendments, the question is on adopting 
the Authorization and Oversight Package. All those in favor, 
say aye.
    All opposed, say no.
    The ayes have it. In the opinion of the Chair, the ayes it. 
The ayes have it. The Authorization and Oversight Plan for the 
Small Business Committee in the 115th Congress is adopted. And 
Committee staff is authorized to make technical and grammatical 
changes to the Authorization and Oversight Plan.
    And Mr. Fitzpatrick is not here yet, is he? Either 
Fitzpatrick, because actually the Staff Director of this 
Committee had back surgery recently. So we appreciate your 
prayers, condolences, and hope he gets well and gets back here. 
But we have another Fitzpatrick that is in Committee. My crack 
staff had noted that he went to LaSalle University, and they 
were going to mention that I went to the real LaSalle, and that 
is LaSalle High School in Cincinnati, Ohio. Very humorous 
thing. I was going to say you are welcome to the Committee 
anyway, and that would have gone into the ether. He didn't hear 
it, but you just did. So anyway, great humor by my staff.
    I think all our business is complete. So I want to thank 
everyone for participating today, and we look forward to 
working with all of you.
    If there is no further business to come before the 
Committee, we are adjourned. Thank you very much.
    [Whereupon, at 11:25 a.m., the Committee was adjourned.]
                            
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
